hNoteo


Office of Inspector General
  for the Millennium Challenge Corporation


September 30, 2005


MEMORANDUM

TO:                  Acting Vice President for Administration and Finance, Millennium Challenge
                     Corporation, Jonathan O. Bloom

FROM:                Assistant Inspector General for the Millennium Challenge Corporation,
                     Henry L. Barrett /s/

SUBJECT:             Survey of the Millennium Challenge Corporation’s Coordination with Other
                     Donors to Implement its Assistance Program (Report No. M-000-05-002-S)

This memorandum transmits our final report on the subject survey. We did not audit the
activities or the data provided within this memorandum. As a result, this is not an audit
report.

This memorandum includes one recommendation to formally establish an organization-wide
policy and guidance concerning donor coordination. In response to the issues we raised
during our survey fieldwork, the Millennium Challenge Corporation (MCC) issued an
organization-wide policy and guidance on August 17, 2005 which sets forth the policy and
procedures by which MCC will comply with the provisions of the Millennium Challenge Act
relating to donor coordination. In finalizing our report, we considered the recently-issued
policy and your comments to our draft report (which are included in its entirety in Appendix
I). We found that the policy complied with our recommended actions and therefore consider
the recommendation to be closed upon issuance of this report.

I appreciate the cooperation and courtesy extended to my staff throughout the survey.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
BACKGROUND
In recent years, international donors have given a renewed emphasis to the importance of
their relationships with partner governments and, in particular, to placing nationally designed
country strategies at the heart of the development process. This trend has been
strengthened by the development of nationally owned poverty reduction strategies and
similar approaches which are intended to emphasize the responsibility of donors to
harmonize their practices for effective delivery of aid. Coordination involves regular sharing
of knowledge and ideas, fostering a culture of consultation and developing a solid
framework of informal and formal relationships. The United States is a member, along with
several other countries, of key development groups which periodically review both the
amount and nature of their contributions to bilateral and multilateral aid programs and
consults with each other on all other relevant aspects of their development assistance
policies.

The Millennium Challenge Corporation1 (MCC), established in January 2004 to further global
development by promoting economic growth, eliminating extreme poverty, and
strengthening good governance is a new development agency which aims to provide
assistance primarily by promoting country ownership. The vehicle for this assistance is
through signed country compact agreements with eligible countries. In fiscal year 2004,
Congress provided nearly $1 billion in initial funding and $1.5 billion for fiscal year 2005.
MCC’s assistance is intended to supplement existing development assistance provided by
the United States and other donors.

MCC’s enabling legislation, the Millennium Challenge Act, requires MCC to coordinate its
assistance activities with the assistance activities of other donors and other U.S.
Government Agencies, such as USAID. Being new to the international donor arena, MCC’s
success will depend, in large part, on how it and its partner countries build partnerships with
other donors to ensure that foreign assistance is delivered in the most effective way and that
its goals of reducing extreme poverty and promoting good governance, economic freedom
and investment in its people are achieved.


SURVEY OBJECTIVE
The Assistant Inspector General for the Millennium Challenge Corporation (AIG/MCC)
conducted this survey as part of its fiscal year 2005 audit plan. The objective of the survey
was to answer the following question:

        What progress has the Millennium Challenge Corporation made in complying
        with and reporting on the Millennium Challenge Act requirements for other
        donor coordination?
1
  The Millennium Challenge Act of 2003 (PL 108-199, Division D, Title VI), established the Millennium
Challenge Corporation in the Executive Branch of the Federal Government as the corporation
responsible for carrying out the Millennium Challenge Act of 2003.



                                                                                                   2
DISCUSSION

The Millennium Challenge Corporation (MCC) has made progress in complying with and
reporting on the Millennium Challenge Act of 2003 (Act) requirements for other donor
coordination. However, our survey identified some areas that could be improved upon.
MCC’s donor coordination efforts would be greatly enhanced by formally establishing an
organization-wide policy and related guidance that describes: the roles and responsibilities
of the MCC staff in reference to donor coordination; the manner in which donor coordination
will be monitored and evaluated; and the manner in which the results will be reported in
MCC’s annual report.

The Act mandates that MCC coordinate, to the extent feasible, with other international
donors, USAID, and other U.S. foreign assistance programs. The Act specifies how certain
coordination requirements are to be met while in other instances it only states the overall
objective of the coordination requirement without specifying how it is to be achieved. For
example, Section 609 of the Act is specific in requiring that MCC ensures that the
government of an eligible country has held consultations with private and voluntary
organizations, the business community, and other donors in the eligible country. Section
613 of the Act requires a description in MCC’s annual report of the coordination of the
assistance provided under Section 605 with assistance provided by other donor countries.

Table 1, shown below, outlines the primary coordination and reporting requirements for
other donors and other U.S. Government agencies under the Act.

                                         Table 1:
            Excerpts of provisions from the Millennium Challenge Act of 2003
 related to U.S. Government and other donor coordination and reporting requirements

                             Coordination with Other Donors
  Section
 of the Act                                  Stated Provision
 609          MILLENNIUM CHALLENGE COMPACT.
              (d) LOCAL INPUT.—In entering into a Compact, the United States shall seek
              to ensure that the government of an eligible country—
              (2) consults with private and voluntary organizations, the business
              community, and other donors in the eligible country.
 609          MILLENNIUM CHALLENGE COMPACT.
              (b) ELEMENTS.— (1) IN GENERAL.—The Compact should take into
              account the national development strategy of the eligible country and shall
              contain— (F) where appropriate, a description of the current and potential
              participation of other donors in the achievement of such objectives.
              (f) COORDINATION WITH OTHER DONORS.—To the maximum extent
              feasible, activities undertaken to achieve the objectives of the Compact shall
              be undertaken in coordination with the assistance activities of other donors.
 613          ANNUAL REPORT.
              (b) CONTENTS.—The report shall include the following: (4) A description of
              the coordination of assistance provided under section 605 with assistance
              provided by other donor countries.
              Coordination with Other United States Government Agencies



                                                                                           3
 605         AUTHORIZATION OF ASSISTANCE.
             (f) COORDINATION.—The provision of assistance under this section shall be
             coordinated with other United States foreign assistance programs.
 609         MILLENNIUM CHALLENGE COMPACT.
             (b) ELEMENTS.— (1) IN GENERAL.—The Compact should take into
             account the national development strategy of the eligible country and shall
             contain—
             (K) a description of the role of the United States Agency for International
             Development in any design, implementation, and monitoring of programs and
             activities funded under the Compact.
 613         ANNUAL REPORT.
             (b) CONTENTS.—The report shall include the following: (3) A description of
             the coordination of assistance provided under section 605 with other United
             States foreign assistance and related trade policies.
 615         COORDINATION          WITH        UNITED       STATES     AGENCY      FOR
             INTERNATIONAL DEVELOPMENT.
             (a) REQUIREMENT FOR COORDINATION.—The Chief Executive Officer
             shall consult with the Administrator of the United States Agency for
             International Development in order to coordinate the activities of the
             Corporation with the activities of the Agency.


MCC’s Coordination with Other Donors

Since its establishment, MCC has made donor coordination a major part of its activities in
preparing to provide assistance to eligible countries. Foremost, MCC holds the eligible
country responsible for ensuring that their proposals take into consideration and identify
other donor assistance. All compact proposals are required to identify past and ongoing
donor activities in given sectors. MCC considers the mechanisms of donor coordination for
any development assistance a core component of its program proposal. To guide the
eligible countries in this undertaking, MCC posted guidance on its website to instruct them
on the consultative process and the information that is required to be in the donor
coordination section of the compact proposals. By making this requirement, MCC has
essentially established a procedure to comply with Section 609, Local Input, which requires
that the United States seeks to ensure that the government of an eligible country consults
with private and voluntary organizations, the business community, and other donors in the
eligible country before entering into a compact.

MCC’s Office of International Relations has oversight responsibility for monitoring,
evaluating and reporting on donor coordination efforts within MCC. This office works
primarily with other U.S.-based donor agencies, such as the International Monetary Fund
and World Bank, as well as, international donor agencies. MCC’s work with the multi-lateral
donors primarily involves discussions of its projects, and programs, sharing of information
such as studies and assessments and participating in international donor meetings to keep
MCC abreast of other donors’ intentions.

In-country donor coordination efforts are primarily the responsibility of MCC’s transaction
teams though they do have involvement with U.S.-based agencies as well. Because of the
differing levels of donor coordination present and needed in each specific eligible country,
the transaction teams include staff from MCC’s Country Programs, Market and Sector
Assessments (providing sector expertise) and Monitoring and Evaluation offices. The teams


                                                                                          4
consist of about six to ten members, travel on a regular basis to the eligible countries and
are responsible for donor coordination efforts in each country visited. While in country, the
teams brief in-country donors on MCC’s foreign assistance philosophy and operation and
ensure that such coordination is taking place by consulting and coordinating directly with
other donors both inside and outside the country. The teams also evaluate proposed
projects, government practices, and meet with relevant stakeholders, including other donors.

We found that in each of the five countries that we reviewed, MCC had performed donor
coordination although the nature of the coordination varied depending on the donors present
in the country and the programs proposed. MCC’s donor coordination consisted of: learning
of the programs conducted by other donors; gathering lessons learned from the more
established donors; and planning for potential co-funding or management of future projects.
For example, MCC consulted regularly with other donors during the design of the
infrastructure project in Cape Verde to ensure that the MCC project activities complemented
the efforts of the other donors without replacing, duplicating or hindering what the other
donors had already accomplished.       In Honduras, MCC met with a variety of multi-lateral
and bi-lateral donors while in-country. Such meetings were held with, among others, World
Bank, Inter-American Development Bank, International Monetary Fund, USAID, Catholic
Relief Services, and the Peace Corps. Additionally, when MCC staff is present in Honduras,
they attend the meetings of a coordination group that was formed by the international donor
community.

Donor coordination is also embedded in MCC’s compact development process. At each
stage leading up to implementation, MCC requires a document that includes a description of
the donor coordination efforts. For example, during the proposal development stage, the
eligible country submits a country proposal which should include a description of other donor
activities and how MCC’s plans fit with other donor programs. During the same stage, after
the transaction teams’ initial visits to the eligible country, an opportunity memo (which
provides the recommendation to proceed with employing MCC resources to that country) is
prepared which includes a preliminary assessment of other donor activity in the country. As
the process moves forward into the due diligence stage, MCC prepares a due diligence plan
and a term sheet (which describes the donor coordination that MCC contemplates engaging
in during the implementation stage). This concept of considering other donors’ efforts carries
forward into the negotiation and implementation stages as shown in the chart below.




                                                                                            5
                                Chart Depicting the Stages of MCC’s
                      Compact Development Process and Related Key Documents
                              Describing Donor Coordination Activities


                     Proposal        Due Diligence       Compact              Implementation
                   Development                          Negotiation
   Stages




                     Proposal         Due Diligence    Investment Memo        Implementation
                                          Plan                                  Agreements
   Key Documents




                    Opportunity     Term Sheet         Compact
                      Memo




Although we did not assess the extent, accuracy or completeness of the information, a
description of donor coordination was included to some degree in most of MCC’s key
documents that led to compacts with Madagascar, Honduras, Cape Verde, Nicaragua and
Georgia, including, as required by the Act, a description in the compact, of the current and
potential participation of other donors in the proposed activities that may have an impact on
achieving the compact’s objectives.


MCC’s Coordination with Other U.S. Government Agencies

As required by Sections 605 and 615 of the Act, MCC has coordinated its assistance
programs with other U.S. government agencies such as the U.S. Department of State and
USAID. For example, the Department of State participated in an agriculture investment
study which was done in coordination with MCC, USAID, and the Department of Agriculture.
Additionally, MCC has engaged other federal agencies such as the Department of Treasury
and Department of Agriculture to provide technical assistance, advice and resources. MCC
also shared various documents such as the key compact development documents and
studies with these agencies to elicit their comments.

MCC views USAID as a board member agency, another government agency, a donor, and a
threshold country implementer. As a result, there have been numerous meetings and
discussions held with USAID on a daily and weekly basis. Furthermore, the transaction
teams met with various USAID officials, such as the Mission Director and program officers in
the eligible countries.


                                                                                               6
Annual Coordination Reporting Requirements

Section 613 of the Act, requires MCC to include a description of the coordination of
assistance with other United States foreign assistance and related trade policies in its
annual report. Although MCC reported such information in its 2004 Annual Report; it did not
fully describe the donor coordination efforts undertaken by MCC during its first year of
existence. The primary reason given by MCC for partial reporting was that MCC had not
disbursed funds to eligible countries at the time of reporting. Section 613 is non-specific and
includes no specific instructions on how MCC should report its donor coordination efforts in
its annual report. We believe that it would be beneficial and useful to readers if a more
thorough and detailed reporting is included in future annual reports. In order to identify what
information to collect and how to present the information, MCC should formally establish a
specific format for collecting and evaluating donor coordination information to meet its
mandatory reporting requirements. MCC officials agree that a format is needed and stated
that they are in the process of determining how it should be accomplished.




CONCLUSION
Although the Millennium Challenge Corporation (MCC) has initiated steps to coordinate its
assistance programs with other donors and other U.S. Government Agencies, our survey
revealed that the MCC lacks an organization-wide formal policy concerning donor
coordination.

Now that four compacts have already been signed and more are imminent, MCC should
move expeditiously in formalizing its draft policy and guidance concerning donor
coordination requirements. This should help assure consistency of how the transaction
teams perform and report on their donor coordination efforts. Since MCC donor coordination
efforts cross departmental areas within MCC and because the Office of International
Relations has no direct control over the transaction teams, an organizational-wide policy and
guidance concerning donor coordination is needed.

At the time of our survey, MCC was in the process of reviewing and finalizing a policy and
guidance on donor coordination. We reviewed the guidance and suggested that the
guidance include information that we describe in our recommendation below.


       Recommendation No. 1 - We recommend that the Millennium Challenge
       Corporation formally establish an organization-wide policy and guidance
       concerning donor coordination to comply with the Millennium Challenge Act
       and that the policy and guidance be approved at a sufficient level within the
       Millennium Challenge Corporation for proper implementation. The guidance
       should include information that describes: the roles and responsibilities of
       staff in reference to donor coordination; the manner in which donor
       coordination will be monitored and evaluated; and the manner in which the
       results will be reported in their annual report.




                                                                                             7
EVALUATION OF MILLENNIUM
CHALLENGE CORPORATION’S
ACTIONS
In response to the issues we raised during our survey fieldwork, the Millennium Challenge
Corporation issued an organization-wide policy and guidance on August 17, 2005 which
sets forth the policy and procedures by which they will comply with the provisions of the
Millennium Challenge Act relating to donor coordination. The policy complied with our
recommended actions. Therefore, we consider the recommendation to be closed upon
issuance of this report.

Additionally, in response to our draft report, MCC management provided written comments
that are included in their entirety as Appendix I. We incorporated certain minor clarifications
into the report that were suggested by MCC.




                                                                                             8
                                                                                    Appendix I


             Millennium Challenge Corporation
             Reducing Poverty Through Growth




MEMORANDUM                                                           September 26, 2005


TO:            Henry L. Barrett, Assistant Inspector General for the Millennium Challenge
               Corporation

FROM:          Jonathan O. Bloom, Acting Vice President for Administration and Finance

SUBJECT:       Survey of the Millennium Challenge Corporation’s Coordination with Other
               Donors to Implement its Assistance Program (Report No. M-000-05-00X-S)

We have reviewed the draft report on the subject survey sent to us in your memorandum of
September 6, 2005. As you note, we issued as recommended an organization-wide “Policy
and Procedures for Donor Coordination” on August 17, 2005.

We find the report generally accurate and offer the following suggestions to clarify the draft:

Page 2, paragraph 3: We would add the words “and its partner countries” to reflect the
central role they play in donor coordination in the MCA model and suggest “in large part”
rather than “largely” since other elements will also be important to the MCC’s success. We
also suggest stating our ultimate goals from the statute, “reducing extreme poverty and
promoting economic growth”, rather than referring to policies that help achieve them.

   “Being new to the international donor arena, MCC’s success will largely depend in
   large part on how it and its partner countries builds partnerships coordinate with other
   donors to ensure that foreign assistance is delivered in the most effective way and that
   its goals of reducing extreme poverty and promoting economic growth good
   governance, economic freedom and investment in its people are achieved.”

On Page 4, last paragraph: To reiterate the above point about the country’s role and so we
don’t imply that the composition of the transaction team is based solely on the need for donor
coordination, we would amend as follows:

   “While MCA eligible countries have the primary responsibility for donor
   coordination in their country, In-country donor coordination efforts are primarily the
   responsibility of MCC’s transaction teams though they do have involvement with
   U.S.-based agencies as well. Because of the differing levels of donor coordination


                                                                                              9
   present and needed in each specific eligible country, are responsible for ensuring that
   such coordination is taking place by consulting and coordinating directly with other
   donors both inside and outside the country. The transaction teams include staff from
   MCC’s Country Programs, Market and Sector Assessments (providing sector
   expertise) and Monitoring and Evaluation offices. The teams consist of about six to
   ten members and travel on a regular basis to the eligible countries. The transaction
   teams are also responsible for donor coordination efforts with U.S.-based agencies in
   each country visited. While in country, the teams are responsible for briefing in-
   country donors on MCC’s foreign assistance philosophy and operation. The teams
   also evaluate proposed projects, government practices, and meet with relevant
   stakeholders, including other donors.”

I would like to thank you and your staff for the useful comments shared during the survey.
These were timely and helpful as we finalized our policies and procedures in this important
area.




                                                                                             10
